<html>
<title> - IMPROVING AND REFORMING OUR NATION'S SURFACE TRANSPORTATION PROGRAMS: BECKLEY, WEST VIRGINIA, FIELD HEARING WITH SUBMISSIONS FROM THE CHARLESTON, WEST VIRGINIA, LISTENING SESSION</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                  IMPROVING AND REFORMING OUR NATION'S
                    SURFACE TRANSPORTATION PROGRAMS:
                 BECKLEY, WEST VIRGINIA, FIELD HEARING
                 WITH SUBMISSIONS FROM THE CHARLESTON,
                    WEST VIRGINIA, LISTENING SESSION

=======================================================================



                                (112-5)

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 14, 2011

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


               Available online at: http://www.fdsys.gov/




                  U.S. GOVERNMENT PRINTING OFFICE
65-735                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    JOHN L. MICA, Florida, Chairman

DON YOUNG, Alaska                    NICK J. RAHALL II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
FRANK A. LoBIONDO, New Jersey        Columbia
GARY G. MILLER, California           JERROLD NADLER, New York
TIMOTHY V. JOHNSON, Illinois         CORRINE BROWN, Florida
SAM GRAVES, Missouri                 BOB FILNER, California
BILL SHUSTER, Pennsylvania           EDDIE BERNICE JOHNSON, Texas
SHELLEY MOORE CAPITO, West Virginia  ELIJAH E. CUMMINGS, Maryland
JEAN SCHMIDT, Ohio                   LEONARD L. BOSWELL, Iowa
CANDICE S. MILLER, Michigan          TIM HOLDEN, Pennsylvania
DUNCAN HUNTER, California            RICK LARSEN, Washington
TOM REED, New York                   MICHAEL E. CAPUANO, Massachusetts
ANDY HARRIS, Maryland                TIMOTHY H. BISHOP, New York
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL H. MICHAUD, Maine
JAIME HERRERA BEUTLER, Washington    RUSS CARNAHAN, Missouri
FRANK C. GUINTA, New Hampshire       GRACE F. NAPOLITANO, California
RANDY HULTGREN, Illinois             DANIEL LIPINSKI, Illinois
LOU BARLETTA, Pennsylvania           MAZIE K. HIRONO, Hawaii
CHIP CRAVAACK, Minnesota             JASON ALTMIRE, Pennsylvania
BLAKE FARENTHOLD, Texas              TIMOTHY J. WALZ, Minnesota
LARRY BUCSHON, Indiana               HEATH SHULER, North Carolina
BILLY LONG, Missouri                 STEVE COHEN, Tennessee
BOB GIBBS, Ohio                      LAURA RICHARDSON, California
PATRICK MEEHAN, Pennsylvania         ALBIO SIRES, New Jersey
RICHARD L. HANNA, New York           DONNA F. EDWARDS, Maryland
STEPHEN LEE FINCHER, Tennessee
JEFFREY M. LANDRY, Louisiana
STEVE SOUTHERLAND II, Florida
JEFF DENHAM, California
JAMES LANKFORD, Oklahoma

                                  (ii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................     v

                               TESTIMONY

Browning, State Senator Richard, Executive Director, Coalfields 
  Expressway Authority...........................................     5
Clowser, Mike, Executive Director, Contractors Association of 
  West Virginia..................................................     5
Mattox, Paul A., Jr., P.E., Secretary, West Virginia Department 
  of Transportation..............................................     5
Mitchem, Mike, Executive Director, King Coal Highway I-73/74 
  Authority......................................................     5
Nichols, Andrew P., Ph.D., P.E., Program Director, Intelligent 
  Transportation Systems, Rahall Appalachian Transportation 
  Institute......................................................     5
Whitt, Mike, Executive Director, Mingo County Redevelopment 
  Authority......................................................     5

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Duncan, Hon. John J., Jr., of Tennessee..........................    62
Mica, Hon. John L., of Florida...................................    68

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Browning, State Senator Richard..................................    69
Clowser, Mike....................................................    74
Mattox, Paul A., Jr., P.E........................................    80
Mitchem, Mike....................................................    82
Nichols, Andrew P., Ph.D., P.E...................................    84
Whitt, Mike......................................................    90

                       SUBMISSIONS FOR THE RECORD

Bayes, Barbara, Director, Good News Mountaineer Garage, written 
  comments, and Rural Transportation Policy Group Position Paper 
  from the National Rural Assembly...............................    14
Blackwell, Angela Glover, Founder and CEO, PolicyLink; Carter, 
  Philip W., Professor, Marshall University College of Health 
  Professions; Davis, Coston, Jr., State President, NAACP West 
  Virginia; Davis, Dee, President, Center for Rural Strategies; 
  Derry, Jan, Executive Director, Northern West Virginia Center 
  for Independent Living; Derry, Mark, President/CEO, Eastlake, 
  Derry & Associates; Henderson, Wade, President and CEO, The 
  Leadership Conference on Civil and Human Rights; Mayolo, Regina 
  A., Executive Director, Community Living Initiatives 
  Corporation (CLIC); Nawaz, Ann, President, Juante Gebape, Inc.; 
  Rutherford, George, President, Jefferson County West Virginia 
  Branch of the NAACP, and Secretary, Star Lodge #1 Free and 
  Accepted Masons--Prince Hall Affiliated; Stewart, Harold E., 
  Secretary, Jefferson County West Virginia Branch of the NAACP; 
  Tolbert, James, Chair, Board of Directors, Jefferson County 
  African-American Community Association; Tolbert, James A., 
  Secretary, Jefferson County Black History Preservation Society; 
  Tolbert, James A., Sr., President Emeritus, NAACP West 
  Virginia; written statement....................................    23
Carter, J. Douglas, General Manager, Potomac Valley Transit 
  Authority, written statement...................................    30
Davis, Paul E., Executive Director, West Virginia Public Transit 
  Association, written statement.................................    32
Helmondollar, Travis, Development Coordinator, West Virginia 
  Students Against Destructive Decisions (SADD), written comments    34
Lusk, Jeffrey, Executive Director, Hatfield-McCoy Regional 
  Recreational Authority, testimony on behalf of Hatfield-McCoy 
  Trails.........................................................    37
McKinney, Patrick, CCTM, Manager, Bluefield Area Transit, written 
  comments on the reauthorization of the highway and transit bill    40
Poe, Rebecca, Director, County Roads Transit, written comments on 
  the reauthorization of SAFETEA-LU..............................    42
Smith, Paula S., Executive Director, Tri River Transit Authority, 
  written statement..............................................    44
                              ----------                              
Charleston, West Virginia, Listening Session, February 14, 2011, 
  Testimony for the Record:
During February and March 2011, the Committee on Transportation 
  and Infrastructure held a national series of field hearings and 
  listening sessions to gather information from State and local 
  officials and stakeholders on pending major surface 
  transportation legislation. Testimony from the Charleston, West 
  Virginia, listening session is included in this hearing.

Carper, W. Kent, President, Kanawha County Commission, on behalf 
  of Kanawha County Commission and Yeager Airport, written 
  support of AIP funding and Essential Air Service (EAS) program.    94
Dawson, Dennis E., General Manager, Kanawha Valley Regional 
  Transportation Authority (KVRTA), written statement............    95
Deneault, Joe, Co-Founder and Treasurer, West Virginians for 
  Better Transportation, presentation before the Committee on 
  Transportation and Infrastructure..............................    99
Robinson, E.L., P.E., President, E.L. Robinson, letter to Hon. 
  John L. Mica, a Representative in Congress from the State of 
  Florida........................................................   104
Spadaro, Laura E., community organizer on behalf of West Virginia 
  Citizen Action Group, written comments.........................   106
The Friends of the Cardinal, written statement...................   108
Tipton, Judy L., President, New Pro Consulting, Inc.:

  Cover letter to Hon. John L. Mica, a Representative in Congress 
    from the State of Florida....................................   110
  Multi-Year Highway Bill Funding Solution.......................   111
  Motor Fuel Inspections--Journal articles and ``Retail Fuel 
    Inspection Activities of the Georgia Department of 
    Agriculture,'' Performance Audit Operations Division, Georgia 
    Department of Audits and Accounts, November 2005, Report 05-
    05...........................................................   142
  Motor Fuel Meters--Journal articles and ``The Silent Thief: 
    Case Study for Statistical Inventory Reconciliation,'' 
    Simmons Corporation..........................................   184
  Motor Fuel Resellers--Journal articles and ``NACS Gas Price 
    Kit,'' NACS: The Association for Convenience and Fuel 
    Retailing....................................................   198

[GRAPHIC] [TIFF OMITTED] 65735.001

[GRAPHIC] [TIFF OMITTED] 65735.002

[GRAPHIC] [TIFF OMITTED] 65735.003



                      IMPROVING AND REFORMING OUR



                    NATION'S SURFACE TRANSPORTATION



                   PROGRAMS: BECKLEY, WEST VIRGINIA,



                     FIELD HEARING WITH SUBMISSIONS



                  FROM THE CHARLESTON, WEST VIRGINIA,



                           LISTENING SESSION

                              ----------                              


                       MONDAY, FEBRUARY 14, 2011

                  House of Representatives,
    Committee on Transportation and Infrastructure,
                                            Washington, DC.
    The committee met, pursuant to call, at 8 a.m., at the 
Governor Hulett C. Smith Theater at Tamarack, One Tamarack 
Park, Beckley, West Virginia, Hon. John L. Mica (chairman of 
the committee) presiding.
    Mr. Mica. Good morning. I would like to call this hearing 
of the United States House of Representatives Committee on 
Transportation and Infrastructure to order. In just a moment 
I'll have an opening statement. We are absolutely delighted to 
be in Beckley and in West Virginia, a beautiful part of the 
country, and hosted today by the chief Democrat and Ranking 
Member of this full committee, the gentleman from West 
Virginia, and I would like to recognize him and yield to him at 
this time.
    Mr. Rahall. Thank you, Mr. Chairman. And we are indeed 
honored to have Chairman John Mica, Representative Mae Hirono 
from the State of Hawaii, and Representative Jimmy Duncan from 
the State of Tennessee with us in Beckley this morning.
    This is the kickoff of a nationwide series of hearings the 
committee will be conducting, a listening tour to learn about 
our Nation's infrastructure needs and to hear the people's 
views. And, Mr. Chairman, if I might before we go further, I 
would like to recognize the mayor of our fine city for a 
welcome.
    Mr. Mica. Welcome, and you are recognized, sir.
    Mr. Pugh. Thank you very much, Mr. Chairman. On behalf of 
the City of Beckley and southern West Virginia, we certainly 
want to take this chance and opportunity to welcome you all to 
our neck of the woods. You can actually see the ground now, and 
the snow has disappeared for the time being.
    But when you look at the different areas of the country 
that you all are going to be holding these hearings, we are 
certainly honored that you are here today in Congressman 
Rahall's hometown of Beckley.
    We realize that different areas of the country have 
different transportation needs. In looking here at the panel 
that you have, that you are going to hear testimony from today, 
these gentlemen certainly are going to tell you about the needs 
of West Virginia, and the needs are great. There is no doubt 
that the roads and the infrastructure is a valuable economic 
development tool, and it's proven its worth many times over 
right here in the Beckley area with the interstate system, the 
Appalachian corridor system, and we know that that's something 
that you are going to see firsthand. So on behalf of the City, 
again, I want to welcome you all here. We appreciate your time 
and your efforts on behalf of West Virginia and the United 
States of America, and wish you all well as you do this fact-
finding mission. Thank you very much.
    Mr. Mica. Thank you so much, Mayor, and thanks also to 
members of the community and this beautiful facility. My wife--
I was informed on the way down here from Charleston last night 
as we drove in that she had been here before and didn't realize 
it, but it is an absolutely gorgeous center, and we're pleased 
to hold the first hearing. And this hearing is of somewhat 
historic proportions, because it is the first in a series of 
hearings that will be held across the United States for the 
next month, and I thought it was important in working in a 
bipartisan basis that we begin right here in the hometown of 
the chief Democratic leader on the Transportation and 
Infrastructure Committee, Mr. Rahall.
    We have had an opportunity to work together the last 18 
years he's been there before me, and he is probably one of the 
most respected Members of the Congress and, without question, 
the leader of our Transportation and Infrastructure Committee. 
So he and I have an important responsibility.
    In September of 2009, the last six-year transportation bill 
expired. They were unable, in the last Congress, to develop and 
pass legislation for a long-term transportation bill, and 
unfortunately the country is suffering right now.
    States do not have a reliable partner, nor do they know 
Federal policy, Federal funding formulas, or the commitment 
that we have always pledged to make to assist in building the 
Nation's infrastructure. So we have had the opportunity to meet 
already, plan the agenda of the committee, and this week we 
helped to pass the FAA authorization. We are on our 17th 
extension. We hope not to make the 18th. And working parallel, 
we are determined--and we dropped last week a measure to extend 
the expiring March 4th extension of the transportation bill to 
the end of September of this year, and our goal is to have that 
on the President's desk by that time, if not sooner.
    So that's why we're here. We start on Thursday again, and 
Thursday is going to be kind of neat. We start here today with 
my colleagues in West Virginia, and I found out that we're 
actually going to the Valley Forge Center in Pennsylvania on 
Thursday. That's where the next one is held. We hope we don't 
have to wrap our feet in rags and trudge through the cold 
weather up there, but we're going to go across the country. And 
the purpose of this is not so much to have long speeches by 
Members of Congress, but to come and listen, and that's what we 
intend to do today.
    So with those comments, again, I cannot thank you enough 
for your willingness to work together, with hands across both 
sides of the aisle, and also for your hospitality. We got to 
add to the economy last night, and we're looking forward--we 
wish we had more time to stay and that also maybe the shops 
would be open by the time we leave, but we do have a commitment 
to be in Charleston this morning, and then back tonight we have 
votes in Washington. Thank you again, Mr. Rahall, for your 
hospitality, and I'll be glad to yield to you at this time.
    Mr. Rahall. Thank you, Mr. Chairman. Again, I express my 
deep appreciation to you and Congresswoman Hirono and 
Congressman Jim Duncan for taking time from truly busy 
schedules to be with us here in Beckley, West Virginia.
    Besides the Mayor of Bluefield, in the audience--I mean 
besides the Mayor of Beckley, in the audience is also the Mayor 
of Bluefield, West Virginia, Linda Whalen, if she would stand 
up and be recognized, and her city manager, Andy Merriman is 
here, as well. They have a deep interest in this transportation 
bill.
    I believe I see our Director of West Virginia Homeland 
Security right behind you, Jim Gianato. Jim, thank you for 
being here. I know we had the Sheriff of Lincoln County here 
and the county commissioner from Lincoln County, Tom Ramey.
    I see Phil Lewis here representing Senator Rockefeller's 
office. And are there other public officials here I'm missing? 
I'm sure there is. Yes, sir?
    Mr. O'Neal. John O'Neal, House of Delegates.
    Mr. Rahall. Yes, John O'Neal, our new member here in 
Raleigh County. Sorry. I didn't see you in the light there, 
John. And, of course, a lot of members that you've met of our 
West Virginia Contractors Association. Who's in the back? Raise 
your hand.
    Mr. Meador. Larry Meador, Hinton City Council President.
    Mr. Rahall. Oh, OK. I didn't see you, Larry. My eyes are 
really going bad. Larry Meador, Hinton City Council or in our 
neighboring county.
    So all of you, we really appreciate your being here.
    Our witnesses, of course, will introduce themselves. They 
will really raise some unique perspective and valuable 
professional information to us this morning. Thank you, Mr. 
Chairman.
     Mr. Mica. And thank you. And, again, thank you for your 
hospitality and willingness to work. And we are pleased to have 
members from both sides of the aisle join us and several 
leaders of the committee. The gentleman who I recognize now is 
the chairman and the long-serving leader in the T&I Committee, 
the gentleman from Tennessee, Mr. Duncan.
    Mr. Duncan, you are recognized.
    Mr. Duncan. Well, thank you. I give a very brief thank you, 
Mr. Chairman, for calling this hearing, and this is my second 
visit to Congressman Rahall's district. Several years ago when 
I chaired the Aviation Subcommittee, we held a hearing of that 
subcommittee in Huntington, so it's an honor to be back here 
with Chairman Rahall and West Virginia. It reminds me so much 
of my home of east Tennessee. In fact, I was telling the group 
last night that the movie ``October Sky,'' which is a West 
Virginia story, was filmed in my district of east Tennessee. So 
there is a lot of similarities between the people of West 
Virginia and east Tennessee, and I look forward to hearing the 
testimony of this distinguished panel of witnesses. And thank 
you very much for letting me be here.
    Mr. Mica. Thank you, Mr. Duncan. And we have actually 
traveling a long way and probably the longest of any of the 
members to come to Washington--I remember her going out some 
years ago for a field hearing in July--Mazie Hirono.
    Mr. Rahall. We regret there's no snow for you. Not really.
    Mr. Mica. She is on four of our subcommittees, so she has a 
lot of say in legislation, and we're delighted to recognize her 
at this time.
    Ms. Hirono. Good morning, everyone. It is a pleasure for me 
to be here to join Chairman Mica and my colleagues on this 
field hearing, and I'm really glad that everyone has mentioned 
how important these field hearings are. There is nothing like 
going to see as many places in this great and beautiful country 
of ours and having a field hearing to listen to the people who 
are literally on the ground. And as long as we're talking about 
field hearings, I would love for this committee to come to 
Hawaii. Those of you who have been to Hawaii, you know that we 
totally rely on transportation to get from island to island. 
And, indeed, to get to Hawaii, you pretty much have to fly or 
take a cruise ship, so these issues are critically important to 
us. We all have transportation needs in our states, and this is 
a committee that is very bipartisan, and I look forward to 
hearing your testimony.
    Mr. Mica. Well, thank you so much. And, again, we welcome 
all of our committee members and thank Mr. Rahall.
    What we're going to do now, we'll turn to the next order of 
business. We have some witnesses selected this morning by Mr. 
Rahall and the committee, and we're going to hear from each of 
them. Normally, what we do if you have a long, lengthy 
statement, you can submit it today, and it will be made a part 
of the official record. And we try to keep this as 
conversational as possible, so you can have the opportunity to 
have an exchange with Members of the Committee.
    Our witnesses today include Paul Mattox. He is the 
Secretary of Transportation for West Virginia; Mr. Mike 
Clowser, Executive Director of the Contractors Association of 
West Virginia; State Senator Richard Browning, and he is the 
Executive Director of the Coalfields Expressway Authority; Mike 
Mitchem, and he is the Executive Director of the King Coal 
Highway I-73/74 Authority, accompanied by Mike Whitt, who is 
the Executive Director of the Mingo County Redevelopment 
Authority; and then the final witness in this panel is Andrew 
Nichols, and Doctor Nichols is the Program Director of the 
Intelligent Transportation Systems of the Rahall Appalachian 
Transportation Institute. Welcome, each of you, and we're 
pleased to have you participate this morning, and we'll start 
by recognizing Secretary Mattox. Welcome, and you are 
recognized.

    TESTIMONY OF PAUL A. MATTOX, JR., P.E., SECRETARY, WEST 
VIRGINIA DEPARTMENT OF TRANSPORTATION; MIKE CLOWSER, EXECUTIVE 
   DIRECTOR, CONTRACTORS ASSOCIATION OF WEST VIRGINIA; STATE 
   SENATOR RICHARD BROWNING, EXECUTIVE DIRECTOR, COALFIELDS 
 EXPRESSWAY AUTHORITY; MIKE MITCHEM, EXECUTIVE DIRECTOR, KING 
  COAL HIGHWAY I-73/74 AUTHORITY, ACCOMPANIED BY MIKE WHITT, 
 EXECUTIVE DIRECTOR, MINGO COUNTY REDEVELOPMENT AUTHORITY; AND 
 ANDREW P. NICHOLS, Ph.D., P.E., PROGRAM DIRECTOR, INTELLIGENT 
   TRANSPORTATION SYSTEMS, RAHALL APPALACHIAN TRANSPORTATION 
                           INSTITUTE

    Mr. Mattox. Good morning. Welcome Chairman Mica, 
Congressman Rahall, and House Committee members and other 
representatives here this morning. Thank you for coordinating 
this important event and for the opportunity to participate and 
present before you.
    West Virginia has the sixth largest state-maintained 
highway network in the country. The Division of Highways has 
statutory responsibility for maintaining more than 36,000 
miles, 92 percent of all the roadways in the state. In 2008, 
total revenue was 30 percent less than it was ten years ago.
    This translates into fewer and fewer dollars becoming 
applicable to West Virginia's roadway network.
    In the process of developing our Long Range Transportation 
Plan, it was discovered the total estimated cost to maintain 
West Virginia's existing system at current levels of pavement 
and operational performance totals $21 billion over the next 25 
years. We are fortunate that because we enjoy an excellent 
working relationship with our local Federal Highway 
Administration, our projects are delivered as quickly as 
possible for the motorists of West Virginia. That is evidenced 
by our collective response to the highway ARRA program.
    A testament to that statement, working with the Federal 
Highway Administration, the Division of Highways has increased 
its improvement program delivery by 19 percent in 2005, 78 
percent last year, relatively working within the same budget. 
My agency is fully supportive of expediting project delivery by 
any method possible, but particularly by the design/build 
method of construction that has saved West Virginia taxpayers 
more than $20 million on the upgrade of U.S. Route 35 alone.
    I am grateful for what the ARRA program did for West 
Virginia, and I'm thankful for the TIGER II program that will 
allow us to build a new roadway facility and remove traffic 
from one of the most dangerous roadways in the state, West 
Virginia Route 10 in Logan County. From the ARRA and TIGER 
programs, my agency has become accustomed to the practices of 
performance and accountability measurements, and we are 
prepared if these measures should also be a part of the new 
highway reauthorization legislation.
    In 2010, 5.9 million riders rode on West Virginia's 18 
public transit systems; one million on the state's rural 
transit systems. These systems travel 11.2 million miles and 
employ 680 full- and part-time employees. Public transit 
service is provided in 33 of our state's 55 counties. Many West 
Virginians, particularly in rural areas, are transit dependent 
and utilize these services to get to work, the doctor, 
shopping, and to take care of the necessities of life.
    The need for continued transportation investment in West 
Virginia is greater now than ever, particularly for needed new 
roads in southern West Virginia, such as the Coalfields 
Expressway, the King Coal Highway, and the New River Parkway.
    A robust multi-year transportation authorization is 
critical as we continue to maintain an aged highway 
infrastructure.
    Addressing the highway and transit needs here in West 
Virginia will allow the state to become a bigger player in the 
global marketplace by creating and sustaining jobs and ensuring 
the future prosperity of the Mountain State. Thank you again 
for being here.
    Mr. Mica. Thank you for your testimony, and what we're 
going to do is we'll withhold questions until we've heard from 
all of the witnesses, and then everyone will have a chance to 
ask some questions.
    Let's hear now from and recognize Mike Clowser, Executive 
Director of the Contractors Association of West Virginia. 
Welcome, sir, and you are recognized.
    Mr. Clowser. Thank you, Mr. Chairman. I am Mike Clowser 
with the Contractors Association of West Virginia.
    We represent about 450 members who employ 20,000 West 
Virginians building our highways, water/sewer systems, 
buildings. We welcome you to West Virginia. We appreciate you 
being here. The roads you came down, the airport you flew in, 
and this beautiful building today were all built by members of 
our association.
    You have asked us to provide you input today on how to 
streamline the process, eliminate programs, improve 
flexibility, and improve the efficacy of private investment in 
transportation infrastructure. I will tell you that I do not 
feel qualified to do that, and I do know that, as the Secretary 
mentioned, we have a great relationship with Tom Smith, our 
Federal highway administrator, and we work with Tom every day 
on how to solve some of these issues. And our national 
association, AGC of America and ARTBA, will be presenting 
information to you on this.
    What is important to West Virginia and the men and women 
who build West Virginia's transportation system is the passage 
of a Federal-aid highway reauthorization bill. The uncertainty 
that has existed since September 2009 has created instability 
in the design and award of construction projects, it has 
resulted in the unemployment of skilled construction workers, 
it has curtailed contractors investing in new equipment, and it 
has resulted in a deterioration of West Virginia's roads and 
bridges.
    You've heard from Secretary Mattox on the breadth of our 
program. I won't go into it today. But everyone is here today 
because we understand the value of capital investment.
    We understand infrastructure improvements are critical to 
support commerce and to improve economic competitiveness.
    An issue that we have in West Virginia is that we do not 
have the ability to look at a lot of alternative methodologies 
for financing our highways. We, as other rural states, depend 
on stable and a predictable Federal funding program to fund our 
highway program.
    The turnpike that you drove down this morning has been a 
toll road since its inception in 1955. We are trying to build 
about 14 miles of road in Mason County and Putnam County 
utilizing tolls. As the secretary will tell you, that's been a 
very difficult proposition with the bond market and with our 
number of people driving. So to look at trying to get tolls in 
West Virginia and trying to do public/private partnership 
programs, obviously it's very difficult to get that investment 
to come into a rural state, especially a state that takes a lot 
of dollars to build roads.
    As Congressman Rahall will tell you, to build a model road 
in West Virginia through our mountains is a little bit 
different than building it in flat terrain. And, as such, we 
depend upon the national Federal highway program, the Federal 
mechanism, the Federal gas tax, or the state gas tax. And since 
the Federal gas tax was last increased in 1993, we have seen 
half of that buying power decreased in the last 17 years. We 
have also, as the secretary mentioned, had a 30-percent drop in 
the buying power in our state funds.
     So we have found that the Federal highway program not only 
has created the great highway system that we have; it certainly 
creates jobs for our industry. And when you look at the number 
of people that are working in the construction industry today, 
we have about--within the West Virginia Department of Highways, 
we have about 23,000 full-time jobs in West Virginia that are 
dependent upon that, with an annual payroll of $1 billion. When 
you look at spreading that out over to the jobs that are 
indirectly created through highways, that adds for many more 
thousands of jobs within our state. So when you look at the 
amount of people working because of the transportation system 
in West Virginia, it is very impressive, although our industry, 
as many throughout the Nation, are seeing very much of a 
decline basically because of the instability in our highway 
programs.
     So, in closing, what I would say to you, Mr. Chairman and 
Members of the Committee, our association appreciates you being 
in West Virginia today. We appreciate the opportunity to share 
our concerns. Streamlining and eliminating red tape is great. 
We applaud that. But if Congress does not act and act swiftly 
to reauthorize the highway bill, we're going to see much more 
people laid off within our industry. We thank you for 
reauthorizing the bill through September. That will be very 
helpful. We look forward to working with you to create the next 
highway bill moving forward. So we appreciate the opportunity 
today, and we appreciate you being in West Virginia.
    Mr. Mica. Thank you, Mr. Clowser.
    And we are delighted now to recognize one the state's 
leaders, and we've got two of them today. John O'Neal, a state 
representative, is here, and we have the opportunity to hear 
from a state senator, and I want to tell you how much we 
appreciate, again, your work as part of the important state 
legislative body.
    With that, let me recognize State Senator Richard Browning. 
Welcome, and you are recognized.
    Mr. Browning. Thank you, Mr. Chairman and other Members of 
Congress. Welcome to West Virginia. We are pleased to welcome 
our favorite son home today, also to his home county, Raleigh.
    I am very pleased to be able to talk to you today about a 
subject that I am very passionate about, the Coalfields 
Expressway. You have introduced me, but I want to take another 
moment to let you know that I serve as Executive Director of 
the Coalfields Expressway Authority, and I'm going to talk 
about that for just a second. Also, I serve as the majority 
whip in the West Virginia Senate, and I chair the Committee on 
Economic Development, which ties right into my local job here.
    The Coalfields Expressway Authority is an organization 
formed in 1996 to push the construction of the highway and, 
thus far, we have constructed seven miles. The whole length of 
the road is 112 miles, and in West Virginia--62 miles in West 
Virginia.
    One of the things that my job allows me to do is dabble in 
economic development along the highway. One of the things that 
I take dear to heart is bringing our people home.
    Southern West Virginia--in the last census, six out of the 
top ten counties in the whole country for population loss were 
in southern West Virginia, and we have to do something to 
reverse that. I don't know what the next census is going to 
show. I don't think it will be that much better, but what we're 
trying to do with construction of the highway is to create jobs 
that will help bring our people home.
    You all know that anywhere roads go, economic 
diversification follows. That's one of the things that I've 
worked on in my job here on the local level, plus my job in the 
Senate as Chairman of the Economic Development Committee.
    The spending on the highways, thus far we have spent in 
constructing seven miles--and we have another 21 miles under 
design and another 40 miles left to go--we have spent a total 
of $146 million in Federal funds. We've spent $39 million in 
state funds as they're matched, for a total of $185 million. 
All of this money, ladies and gentlemen, has been in the form 
of earmarks. We have never, ever used one penny of Federal 
discretionary dollars that come through the regular highway 
funding bills that we get.
    Switching over now to my other hats, I'd like to take a 
moment to address some of the questions that Congressmen Mica 
posed in your invitation letter to me. Reducing the number of 
programs, I applaud you for looking at the programs that our 
Federal highway dollars are used to fund. I know as a member of 
our State Senate, as a member of the Legislature for many 
years, good programs come and go. You always have to evaluate 
the ones that are out there and use the money for the ones that 
aren't doing so well and for the new ones that are coming 
along. So I applaud you for doing that.
    I would caution you, however, against cutting any money for 
any form of transportation. We all know that our global 
partners, trading partners in the world, are changing. We know 
through ARC studies that our trading partners are going to 
shift more toward the eastern ports. So we stand ready in this 
part of the country for the inner mobile hubs that must happen 
because our ports aren't large enough to handle the increased 
volume of trade that's going to come about as a result of the 
widening of the Panama Canal. So I would caution you against 
reducing any funding for that.
    Streamlines of the project delivery process, Mr. Clowser 
has already mentioned the design/build construction. We need 
more of that. We need to decrease the regulatory hurdles that 
we all must do to get highways done. We know that the faster we 
can get a highway finished, the more the public appreciates it 
and can use it.
    Increased private sector investments, I've noticed in the 
last three highway bills that there's more emphasis placed on 
state funding. At the same time, the State has put more 
emphasis on county funding. We have voted on many tax 
increases, gasoline tax increases, in our state to keep up with 
the Federal dollars. I'm asking you today to increase the 
Federal gasoline tax.
    And I think I have to stop there. I'll be glad to answer 
questions.
    Mr. Mica. That might be a good place to stop. Mr. Rahall 
and I have our work cut out, and we see with the new leadership 
of the House, that they have their work cut out for them. With 
that, let me just thank you.
    And let's turn now to Mike Mitchem; he's the Executive 
Director of the King Coal Highway Authority. And you have Mr. 
Whitt with you, so let me recognize both of you. And he is the 
Executive Director of the Mingo County Redevelopment Authority. 
So we take you in sequence.
    Mr. Mitchem?
    Mr. Mitchem. Thank you, Chairman Mica and Ranking Member 
Rahall and distinguished committee members for inviting me to 
speak today. It is my pleasure to join you today at this 
important hearing. To give you a little background on the King 
Coal Highway Authority, we cover both the King Coal and Tolsia 
Highways, which will travel from Bluefield, West Virginia, to 
Huntington, West Virginia, when completed and cover five 
counties. These two highways are West Virginia Corridors of I-
73/74, which will travel from Sault Ste. Marie, Michigan, to 
Myrtle Beach on the I-73 section and will travel to Chicago, 
Illinois, and Davenport, Iowa, on the I-74 section and 
intersect with these important highways: I-95, I-64, I-77, I-
75, just to name a few.
    I-73/74 is the Number 5 High Priority Corridor in the U.S. 
This corridor contained over 61 million people along its route, 
or 21 percent of the U.S. population. The corridor, as it runs 
through West Virginia, will make it an important transportation 
hub and will help impact economic development, tourism, and 
safety.
    According to an Economics Impact Study that was completed 
for the Authority by Chmura Economics and Analytics, the annual 
economic impact for the highway is $220 million that will 
sustain 2,020 jobs. This report does not include employment 
from the proposed Trans Gas Plant in Mingo County, West 
Virginia, or the proposed Intermodal Park at Pritchard, West 
Virginia. These projects should increase these figures even 
more.
    Currently, we have 18 miles of highway that have been 
designed on the Tolsia Highway and 19 more miles of combined 
King Coal and Tolsia Highway either constructed or under 
construction with the help of Federal funding and public/
private partnerships with coal companies. We also have six more 
miles that are proposed to be built in a public/private 
partnership with Consol Coal Company. Mr. Whitt will tell you a 
little bit more about it.
    The Federal funding we have received has mostly came from 
the 2005 SAFETEA-LU Transportation Bill, as well as earmarks 
from Congressman Rahall and the late Senator Robert C. Byrd. 
The only way our highway can be finished is by the support of 
Federal funding, especially funding from the new transportation 
bill, which we fully support.
    One of the main reasons we are building the King Coal and 
Tolsia Highways is because of the dangerous, narrow, two-lane 
U.S. Route 52 and to move our housing to higher ground, away 
from flooding streams that run beside of Route 52. The King 
Coal and Tolsia Highways will be the replacement for U.S. Route 
52 and will be built mostly along higher ground.
    Since 2001, according to records from the National Climatic 
Data Center, McDowell and Wyoming Counties, two of the counties 
that the highway will travel through, have had a combined total 
of damages from flooding of $237 million that could have been 
alleviated if these highways had been constructed on higher 
ground with new housing built out of the flood plain.
    One suggestion we have for a possible source of funding for 
the new transportation bill would be a check-off space on the 
Federal income tax forms. I have been asked by numerous 
individuals if there was any way that they could help give 
money toward our highway project. I think this would be one.
    This could possibly be one way for individuals to assist 
with Federal highway trust funding and future highway projects.
    As a close, I would ask for a quick passage of the next 
transportation bill, which we hope will include funding for the 
King Coal and Tolsia Highway projects. And I hope all of you 
will someday be able to tour our project area to see the 
progress being made, as well as the problems that exist on our 
current highways. Thank you.
    Mr. Mica. Thank you.
    Mr. Whitt?
    Mr. Whitt. Thank you, Mr. Chairman. I am like the rest of 
them. I really appreciate you and your committee coming to West 
Virginia to hold this hearing on a very important, very dear to 
our heart project, the transportation bill.
    I would like to share with you what we have tried to do 
down in the southern part of the state, knowing how difficult 
it is to obtain Federal and state dollars to construct roads, 
because there is so much competition. We embarked upon a 
public/private partnership down there utilizing our Land Use 
Master Plan, our county development plan back in 2000, and we 
sort of laid the blueprint out on what we would like to see 20 
years from now, and this was a grass roots effort.
    We had a company doing some mining in a section of where 
the King Coal Highway was going to go. We approached him, asked 
him about doing a section. He had three miles there that could 
be a post mine land use. There's no public money into that 
until we grade it and pave it at the end of the project. So we 
got with the mining company, the Federal and state highways, 
the land companies, and we agreed to do this three-mile 
section.
     While we were looking at that, we looked at 12 miles to 
the west of that, and it had been mined before. There was just 
little pockets of coal here and there, so we really got down 
and put some--put our heads together and really worked hard; it 
was an open mind. Presently, we have 15 miles under 
contstruction. The projected cost of this road was about $400 
million. The end cost on this is going to be somewhere around 
$120 or $130 million. It's creating a number of acres for 
economic diversification outside the flood plain.
    And, for an example, where some of these areas are 
completed, we've got a new consolidated high school that's 
going to open in August of this year. That's consolidating four 
high schools into one. It's a 90-acre site that was developed 
by this construction company and donated to the local board of 
education. We were able to get some funding from our 
congressional folks to put utility lines along this, and we do 
have a utility corridor that we worked with Secretary Mattox 
and the Federal Highway Administration to put a utility 
corridor. To my knowledge, that's the first time that we've had 
one beside a four-lane. Now, you tell me why you build a four-
lane and you don't put a utility corridor. That doesn't make 
much sense to me. You can't develop anything. But this will be 
the first time ever in the history of Mingo County that we're 
going to have a four-lane highway with development sites that 
are out of the flood plain, with utilities beside it. It's the 
first time ever in the history of our county, and we're very 
rural, and if we can't find unique ways and creative ways to do 
things down there, we're never going to survive, because you 
folks and state folks can't provide enough funding for us to do 
what we need to do to survive.
    With that, I appreciate you folks coming down and listening 
to it. We will be having a ribbon-cutting ceremony probably the 
first of July. I would like to invite you or any of your 
members that can come down to this, along with our Federal and 
state highway folks, so you can actually see what we're doing 
and what terrain we're having to build these roads in. The 
projected cost is $28 million a mile if we do it with fully 
public money, and we think if we can do it public/private, we 
can build these roads for somewhere between 30 and 40 cents on 
the dollar. Thank you very much.
    Mr. Mica. Thank you for your testimony, and we'll recognize 
Dr. Nichols now. Welcome, and you are recognized.
    Mr. Nichols. Thank you, Mr. Chairman Mica, Ranking Member 
Rahall, and Members of the Committee. I am here today 
representing the Nick J. Rahall II, Appalachian Transportation 
Institute at Marshall University in Huntington, West Virginia, 
where I serve as the program director of Intelligent 
Transportation Systems and an assistant professor of 
engineering. I would like to welcome you to our beautiful state 
and thank you for the opportunity to share our perspective on 
improving our Nation's surface transportation program and how 
institutions like RTI are part of the solution.
    RTI is a national University Transportation Center (UTC), 
which was established twelve years ago by the Transportation 
Equity Act for the 21st Century. Some of you may be unfamiliar 
with UTC programs, but you're likely to hear from many of us 
over the next two weeks.
    The UTC program is administered by the Research and 
Innovative Technology Administration of the USDOT.
    Under SAFETEA-LU, there are currently 60 UTCs that directly 
involve approximately 120 universities across the Nation.
    The mission of the UTC program is to advance technology and 
expertise in all facets of transportation through education, 
research, and research implementation. Each UTC has a unique 
theme that guides their research and educational initiatives.
    RTI's theme is ``Transportation and Economic Development in 
Mountain Regions,'' and many of our initiatives have focused in 
the Appalachian region.
    The American Society of Civil Engineers periodically 
produces a report card that grades different aspects of our 
Nation's infrastructure, including six transportation 
components. In 2009, the most recent report, all six 
transportation components rated in the C to D- range.
    Bridges were rated at C because more than 26 percent of the 
Nation's bridges are either structurally deficient or 
functionally obsolete, and an annual investment of 
approximately $17 billion is needed to substantially improve 
the current conditions. Roads are rated D- based on an estimate 
that Americans spend 4.2 billion hours per year stuck in 
traffic, at a cost of $78.2 billion, and 45 percent of major 
urban highways are congested.
    Since funding for capital improvements to alleviate 
congestion will continue to be scarce, innovation is essential 
to improve these poor conditions. UTCs are constantly 
developing and evaluating technologies and strategies that will 
help design, build, and operate systems more cost effectively 
and improve safety of those systems.
    RTI has been involved in many projects of regional 
significance, including the analysis of innovative financing 
methods on the King Coal Highway, as Mr. Whitt mentioned, as 
well as transportation technology evaluation and deployment and 
many others. RTI completed a project for the Appalachian 
Regional Commission to develop a tool that could be used to 
facilitate the efficient estimation of construction costs 
needed to complete the 13-State Appalachian Development Highway 
System, which was the first highway system authorized by 
Congress for the purpose of stimulating economic development. 
This tool developed by the UTC helped the ARC reduce the cost 
to generate these construction estimates by 42 percent and 
facilitated the analysis of the economic impact of completing 
ADH System. That analysis estimated the total economic benefit-
cost ratio to be 3.6 to 1 for the Appalachian Region and 3.1 to 
1 for the entire United States through improved connectivity 
and accessibility.
    RTI is the lead on an active research and development 
project in Morgantown, West Virginia, in collaboration with 
four other universities that are affiliated with UTCs. This 
project funded by the West Virginia Department of 
Transportation is focused on improving traffic signal timing 
along an extremely congested corridor using adaptive traffic 
signal control, because constructing additional lanes or 
alterative routes is not financially feasible.
    Traffic system optimization has been shown to provide a 
benefit to cost ratios up to 55 to 1. This project is unique 
because we're quantifying those benefits to justify the 
investment prior to deployment using innovative techniques and 
deploying technologies and sensors along the corridor to 
continually monitor the operations over time. This project is 
an example of how UTCs, DOTs, and technology manufacturers can 
work together to deploy real solutions to real problems. This 
project also highlights the need for increased investment in 
the deployment of ITS technologies, which provide for more 
effective system management, oversight, and performance 
measurement.
    Another critical aspect in improving the transportation 
system is education, ranging from science, technology, 
engineering, and math recruitment in K through 12, to 
undergraduate education and workforce training. The presence of 
UTCs across the Nation ensures the students and professional 
have access to advanced educational and training opportunities, 
and that widespread recruitment efforts focused on the 
transportation profession will be carried out.
    There are numerous success stories from other RTI projects 
that have positively impacted transportation in the region and 
the Nation. You will likely hear many more success stories from 
other UTCs, all which are documented by RITA through its 
performance measuring system.
    Without RTI and other institutions in the UTC program, 
there would be large voids in all aspects of the current 
transportation system, and future innovation will be severely 
inhibited. Congress had a vision to create the UTC program 
approximately 23 years ago, which has been integral in 
achieving the transportation system that we have today. I ask 
that your vision include UTC program funding at current or 
increased levels, so that we can continue to innovate and serve 
the transportation in the United States.
    Mr. Mica. Well, thank you for your testimony, Dr. Nichols 
and each of the witnesses. First of all, as to the unanimous 
consent that all of our witnesses' full statement be included 
in the record without objection, it's so ordered.
    It's impossible in these official hearings to have dozens 
of witnesses, and we have six individuals who have provided 
testimony this morning.
    But what we want to do, Mr. Rahall and I want to make 
certain that anyone who has any ideas or recommendations for 
the committee, that their ideas and their proposals be made 
part of the record. And I'd like to recognize Mr. Rahall for a 
motion.
    Mr. Rahall. Mr. Chairman, I would ask that the committee 
record remain open for two weeks, so that all members of the 
audience and anyone else that would like to submit written 
testimony for the record be made part of the record of today's 
hearing.
    Mr. Mica. Without objection, so ordered. So you will have 
an opportunity to participate in that regard.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 65735.004
    
    [GRAPHIC] [TIFF OMITTED] 65735.005
    
    [GRAPHIC] [TIFF OMITTED] 65735.006
    
    [GRAPHIC] [TIFF OMITTED] 65735.007
    
    [GRAPHIC] [TIFF OMITTED] 65735.008
    
    [GRAPHIC] [TIFF OMITTED] 65735.009
    
    [GRAPHIC] [TIFF OMITTED] 65735.010
    
    [GRAPHIC] [TIFF OMITTED] 65735.011
    
    [GRAPHIC] [TIFF OMITTED] 65735.012
    
    [GRAPHIC] [TIFF OMITTED] 65735.013
    
    [GRAPHIC] [TIFF OMITTED] 65735.014
    
    [GRAPHIC] [TIFF OMITTED] 65735.015
    
    [GRAPHIC] [TIFF OMITTED] 65735.016
    
    [GRAPHIC] [TIFF OMITTED] 65735.017
    
    [GRAPHIC] [TIFF OMITTED] 65735.018
    
    [GRAPHIC] [TIFF OMITTED] 65735.019
    
    [GRAPHIC] [TIFF OMITTED] 65735.020
    
    [GRAPHIC] [TIFF OMITTED] 65735.021
    
    [GRAPHIC] [TIFF OMITTED] 65735.022
    
    [GRAPHIC] [TIFF OMITTED] 65735.023
    
    [GRAPHIC] [TIFF OMITTED] 65735.024
    
    [GRAPHIC] [TIFF OMITTED] 65735.025
    
    [GRAPHIC] [TIFF OMITTED] 65735.026
    
    [GRAPHIC] [TIFF OMITTED] 65735.027
    
    [GRAPHIC] [TIFF OMITTED] 65735.028
    
    [GRAPHIC] [TIFF OMITTED] 65735.029
    
    [GRAPHIC] [TIFF OMITTED] 65735.030
    
    [GRAPHIC] [TIFF OMITTED] 65735.031
    
    [GRAPHIC] [TIFF OMITTED] 65735.032
    
    [GRAPHIC] [TIFF OMITTED] 65735.033
    
    [GRAPHIC] [TIFF OMITTED] 65735.034
    
    [GRAPHIC] [TIFF OMITTED] 65735.035
    
    Mr. Mica. Now, let's turn to a round of questioning, and 
what I'm going to do is yield first to our host this morning 
and again the leader on the Democratic side of the aisle. Mr. 
Rahall, you are recognized, sir, for questions.
    Mr. Rahall. Thank you, Mr. Chairman, I appreciate that, and 
I certainly want to thank the panel for their expert testimony 
this morning. As the committee has so well heard, these 
individuals have devoted their lives to building a better 
infrastructure for our state of West Virginia, providing good-
paying jobs for our people, jobs through transportation. 
Indeed, that's the motto of the Rahall Transportation 
Institute, as Dr. Nichols knows.
    It's been demonstrated certainly by Mike Whitt in his 
testimony that we in West Virginia, as in many rural parts of 
our Nation, have to these days look at unique ways of 
leveraging scarce Federal dollars in order to attract more 
dollars, whether it's from the private sector, other Federal 
agencies, or other levels of government. Our state of West 
Virginia under Secretary Mattox's leadership has been an 
excellent partner in building transportation networks.
    This state has been able, with no problem whatsoever and 
again with Senator Browning's leadership in the Legislature, to 
come up with the 20 percent match on every earmarked project 
that myself or any other member of the congressional delegation 
has been able to secure for the state. These earmarks that have 
been referenced by the testimony are important. I happen to 
strongly believe that an elected representative knows his or 
her district better than an unelected bureaucrat in Washington 
or even the President of the United States. And if we were to 
eliminate such a process known as earmarking, we would only 
empower those unelected bureaucrats in Washington and/or the 
President of the United States to have more leverage over 
Members of Congress. So I'm a defender of that process when it 
is open and transparent. And as chairman and my good Members of 
this Committee know, we have made the process very open and 
transparent. And as each of you know when applying for 
earmarks, there is an application process. You have to certify 
a level of support. It's not Washington dictating what comes 
down; it's what comes up from the local level.
    That local support has to be there. It's certification that 
no one is benefitting personally from an earmark, and also the 
Member of Congress requesting such an earmark has to reveal 
that on his or her website. So as long as it's an open process, 
I strongly--and a transparent process, I strongly defend it.
    I would like to ask Secretary Mattox. You mentioned design/
build in your testimony. Mike Whitt and a couple others 
referenced smart construction. I believe Mike asked the 
question, ``Why would you build a highway without putting in 
place the ability to have utilities?'' Included in smart 
construction--design/build and smart construction, are we 
talking about the same thing? Mr. Whitt.
    Mr. Whitt. [Nonverbal response.]
    Mr. Rahall. I didn't think so. Paul, would you elaborate a 
little bit more on design/build?
    Mr. Mattox. Yes, Congressman. Thank you. Design/build, 
which has been employed in West Virginia for the past few 
years, is a process where you combine the engineering work with 
the construction work concurrently, and it results in a 
tremendous savings of time, and time is money. An thus far our 
success has been very good using the design/build procurement 
method in West Virginia.
    We are currently looking to the design/build/finance on a 
new project. Hopefully, we will do it later this year.
    It's a large construction project, part of our Corridor H 
Highway System and part of the Appalachian Development Highway 
System here in West Virginia. And we are looking to meet the 
employee deferred payment to contractors on that project, to 
allow us to spend future Federal dollars now and pay the 
contractors those future Federal dollars that come to the state 
of West Virginia.
    We like the design/build process. We continue to work with 
the Contractors Association and the Legislature to continue 
that legislation that is now currently set to sunset. We are 
looking to extend that program possibly till 2013. Hopefully, 
at some point in time, we would have no sunset and that would 
be a permanent tool in our toolbox.
    Mr. Rahall. And, Mike, the public/private partnership, can 
you relate to the committee any problems you've had in that 
particular area, since you've implemented it so well in Mingo 
County?
    Mr. Whitt. Early on, when they agreed to do this public/
private, that's something I was not part of. But there's a 
couple things we felt like if we would do differently, it would 
make the process a lot easier. Number one, on the front end, 
include the prevailing wage and, also, you know, put it out to 
open bid. There was so much public saying in this first project 
here that--you know, the determination was made there was so 
much public benefit, we need to go forward with the project, 
and that's what we done.
    But we are working on two other potential ones. One is the 
post mine land use that Mr. Mitchem mentioned, Consol. I mean, 
we've got an MOU signed by everybody involved; the Federal 
highways, the state highways, the congressional folks, the land 
company, the coal company. They're going to build six miles of 
this road, and to meet the standards of the Federal and state 
highway administrations, they're going to build it to rough 
grade, and then they're going to donate it all to the West 
Virginia. So we don't owe them one public penny. It's held up, 
though. It's a mining permit. EPA has got it held up, and it's 
been held up for a couple years. So they are working on that as 
we speak.
    But if we can't leverage and take advantage of 
opportunities like that--they just come along once in a 
lifetime. You know, most people just get an opportunity once. 
We've been blessed. The Lord has had his hand on us, because we 
got a second chance to do something constructive for our people 
down home and for the state of West Virginia, and that's what 
we're trying to do. Thank you.
    Mr. Rahall. Thank you.
    Yes, sir. Richard?
    Mr. Browning. Congressman, if I can add to that, we have 
had two successful public/private projects in the state thus 
far, and we're working on a third now, I guess, with U.S. 35.
    The problem with both the first two, we did it without 
legislation authorizing public/private projects. We did it 
within existing law. Now, we began working on a public/private 
project bill in 2002. Paul, I think we passed it in what, 2008? 
So we have laws in place now to further enhance the building of 
those types of projects, and I didn't get to it in my testimony 
awhile ago, but that's one of the key issues of things that we 
have to come up with, more and better innovative ways of 
highway financing, and that's just one of the tools in the 
toolbox to do that.
    Mr. Rahall. And you found particular interest--your 
reference to the state gas tax, we did raise it twice in West 
Virginia, I believe, under Governor Caperton's administration.
    Mr. Browning. If I can elaborate, we raised our gas tax in 
1993 a nickel in anticipation of Federal dollars coming into 
the state. We renewed that two years ago. So, additionally, in 
that space of time we implemented a RAT tax, which brought in 
more state dollars for road funding in West Virginia. As you 
know, Congressman, our state is different than most states. All 
of you who flew in here, you flew across our mountains. You see 
how terrain-challenged we are.
    I think Mr. Mitchem mentioned that it cost $28 million per 
mile to build roads in this state on the average. That's higher 
than I thought it was, and evidently inflationary costs have 
gone up.
    You know, a small state like West Virginia, we can't tax 
our people enough to build the roads that we need, so we have 
to have more Federal help. And one thing that I hope that we do 
in this next Federal highway bill is something that Senator 
Byrd always worked on very hard, was to keep the donor/donee 
ratio where it is so that we do get the additional dollars that 
we need to maintain our highway system. You know, we're looking 
now with legislation in our state and our state senate today of 
taking excess rainy day fund money and putting it toward 
transportation. We're looking at bringing more coal severance 
tax back to coal-producing counties to help out with road 
construction. So we are turning over every rock we can in our 
state to find additional highway dollars to meet the need, 
because as you look around, it's not happening.
    You know, in the ten years of the 1990s, the number of 
tractor-trailer rigs doubled on our highways because the 
economy was racing. If we had that kind of economy today, I 
don't know how we could do it. I think our transportation 
system would bottleneck in such a way that we couldn't.
    Mr. Rahall. And I think a small state like West Virginia 
should be recognized or receive a benefit, as well, when the 
state steps up to the plate, so to speak, and raises the gas 
tax. There should be that recognition among the Federal level, 
that you should receive credit for it in attracting more 
Federal dollars.
    And I might say, also, that people--in my experience, when 
you convince them that that money that you raise through a gas 
tax is going back into transportation, not some black hole 
called deficit reduction--when it goes back into transportation 
and they are assured it's going to come back in transportation, 
they can stomach it a little better--not very well, but----
    Mr. Browning. I never hear a complaint about building 
roads.
    Mr. Rahall. Beg your pardon?
    Mr. Browning. I never hear a complaint from a constituent 
about building roads or paying additional gas tax. Now, we have 
had some toll issues with some of the residents of the state. 
But, you know, the reason that I suggest that it has to be 
raised federally is because our gas tax right now is higher 
than all but one other neighboring states, so to keep our 
borders competitive with our neighboring states, everyone has 
to go up to maintain that stability. So, again, we stepped up 
in West Virginia. We have raised the tax when it's been 
necessary. Again, we're looking at alternative ways now to fund 
roads.
    Mr. Rahall. Mike, do you have a comment?
    Mr. Clowser. Thank you, Congressman. Just as a follow-up on 
my comment earlier about West Virginia and whether we can use 
alternative financing mechanisms. When we talk about public/
private partnerships like the one that Mike has done on the 
Coalfield--or in the Coalfields, that has been a marvelous 
project, because you have a private landowner that's doing the 
work anyway, and we're incorporating that as part of the 
roadway once we get to the paving process.
    There is a difference between a public/private partnership 
that we're doing in West Virginia than, say, what Florida is 
doing in their public/private. And Florida, as the Chairman 
knows, is doing a lot of public/private partnerships to build 
their new highways in their state. A true public/private, as we 
understand it--and we've seen it work in other states--is when 
you get a private developer that's going to come in and 
basically build that road for the state and then be repaid over 
the next ten, fifteen, twenty years from user fees. And what we 
have looked at in West Virginia, given our rural status and the 
cost of money for a private developer coming in and funding a 
road, who cannot obviously fund it or cannot borrow at the same 
rate as the Federal Government in the state, utilizing a 
public/private partnership in the state of West Virginia or 
other rural roads, we think we're going to be very limited. It 
does have its applications and is working well under this 
scenario, but for us to go out and say we're going to complete 
Corridor H, given the traffic count on that, or other roads in 
the state, we see the public--as the senator said, public/
private is a tool in the toolbox, but it is not going to be a 
saving grace going forward to build and maintain our highways 
in West Virginia. And that's where we think the Federal funding 
needs to be predominant and needs to be a presence.
    Obviously, we agree with our learned senator here on 
raising the gasoline tax, but those are the type of things that 
as you go across the state and go across the Nation, you're 
going to have different applicability from area to area. And 
while public/private is a tool that we passed a couple years 
ago to allow us to do that, we feel it's going to be very 
difficult to build roads going forward if we're using only that 
money.
    Mr. Rahall. Thank you, Mr. Chairman.
    Mr. Mica. Thank you. Let me yield now to the gentleman from 
Tennessee, Mr. Duncan.
    Mr. Duncan. Well, thank you, Mr. Chairman. And, first of 
all, I want to say, you know, that I'm a very conservative 
Republican, but I agree with Ranking Member Rahall on the 
earmarks. That was sort of a false issue. Earmarks were less 
than half of one percent of the total Federal budget, and I 
heard Senator Inhofe a couple weeks ago speak to a group that I 
was in, and he is a Republican who favors earmarks, and he said 
of Sean Hannity's 102 worst earmarks, his staff went over them, 
and every one of those 102 was a bureaucrat's earmark and not 
one of them came from a Member of Congress.
    But let me say this. I've served on this committee now for 
22 years, and I can tell you that over and over again we hear 
testimony--for instance, when I chaired the Aviation 
Subcommittee, we heard that the main runway at the Atlanta 
airport, the newest runway which is several years old, took 14 
years from conception to completion, but it took only 99 
construction days, and they did those in 33 twenty-four-hour 
days because they were so relieved to get all the final 
approvals in. They were almost all environmental delays.
    And then three or four years ago we heard that a southern 
California road project that was either nine or twelve miles--I 
can't remember which, but it took 17 years from conception to 
completion, once again, all because of the environmental 
delays.
    We have given far too much power in this country to 
environmental radical, and we all are going to have to work to 
greatly streamline those environmental rules and regulations 
and red tape, because that's what throws the cost of everything 
out of whack and all these delays no matter what it is.
    We have a six-year limit on chairmanship on the Republican 
side. So I chaired the Aviation Subcommittee, and then I 
chaired the Water Resources and Environment Subcommittee, and 
now I chair the Highways and Transit Subcommittee. And all 
these things that come out of our committee--all these things 
we are told take about three times as long on the average and 
about three times the cost because of all these environmental 
rules and regulations. And I know all of these environmental 
radicals come from very wealthy and very upper income families, 
but they are really hurting the poor and the lower income and 
the working people in this country.
    And then you talk about losing population. I read two years 
ago that two-thirds of the counties in the U.S. are losing 
population, and the small towns and rural areas are having real 
difficulty holding on already. And then they say that gas is 
going to go to five dollars or something a gallon. We have a 
Secretary of Energy, and I know nothing about him other than I 
read that a few months before he became Secretary of Energy, 
that he said we should be paying the same price for gas as they 
do in Europe. At that time, the average price for gas in Europe 
was eight dollars a gallon. I'm one of the few Republicans, I 
guess, who would vote for a gas tax increase if we could lower 
the price of gas, and I honestly believe that we could do it if 
we'd just start producing a little more gas and a little more 
oil in this country, because I don't believe that we'd have to 
produce anywhere near all of it, but if we started producing a 
little bit more, these Middle Eastern countries, I think, would 
get shook up and they couldn't keep raising their prices like 
they do.
    And I'm going to get a bunch of other stuff off my mind, I 
guess, while I'm here. But what we need to do is stop--we need 
to stop spending hundreds of billions on these unnecessary 
foreign wars and start spending money on doing some things here 
in this country.
    But east Tennessee--now, when Lee Greenwood sings about the 
hills of Tennessee, he's singing about my part. Some of it's 
mountainous, some of it's hilly, and some of it's flat in the 
valleys. And what I'm getting at, you say $28 million a mile, 
but there is wide variations, is there not, Mr. Secretary? I 
mean, if you're blasting a new road through a mountain, boy, 
it's going to cost a lot of money.
    But if the road is already there and you're just trying to 
improve the road, it's not as much. And then you do have some 
valley places where maybe while it's not totally flat, we have 
hardly any totally flat places in east Tennessee, but some of 
them are a little bit flat. I was amazed, Mr. Whitt, to hear 
your testimony about a road that was estimated to cost $400 
million, and it cost $130 million. Of all the hearings I've 
been in, I've never heard such a lower figure come in on any 
major project, and I'm fascinated with that, and I'd like to 
know more about it.
    Were you building in a semi-flat place or was there already 
a road? Did you have to blast through a mountain or what?
    Mr. Whitt. This is right on top of a ridge, of a mountain. 
The difference in that, in a lot of areas you won't have the 
same opportunities that we have down in my part, because we've 
got some pockets of coal that was left there years ago, and 
that reduces the public input. Every time, the coal we find 
there, they sell that, and then that reduces the public input 
of funds. Three miles of this was 100 percent post mine land 
use for the mine operation that they left to rough grade, which 
I think the Secretary--and probably four or five years ago, he 
and the Governor came up with that price tag down in our area. 
We're building this road on top of a mountain, so you're taking 
the whole mountain off to build the road, rather than putting 
it down in a valley and wiping everybody out, because that's 
where we live is right now in a real narrow valley that's flood 
prone. And, Mr. Secretary, the numbers are still approximately 
$28 million a mile without any kind of help and about--if we do 
it as post mine land use, it's about somewhere between 4 and 5 
to finish it out with the finished grading, drainage, and 
paving. Am I correct?
    Mr. Mattox. It's 5 or 6 to finish it out.
    Mr. Whitt. That's the kind of prices we are--and if we 
can't--if we don't do it that way down there, we just can't get 
it done. We don't have that many funds.
    Mr. Duncan. I met with the head of the Federal Highway 
Administration a few days ago, and I'll tell you we need to 
send our staff and he needs to send his people, and we need to 
find out every little detail of how you did that, because I can 
tell you in all the hearings I have been in, 99.9 percent of 
the time we hear about projects costing way more than what they 
were originally estimated. Of course, we need to build it more 
to incentivize companies that complete projects cheaper, but, 
at any rate, I commend you for that.
    Mr. Whitt. Our Federal highway administrator, who is in 
attendance here, and Secretary Mattox--I'm sure they can 
provide a lot of information to them about this project, 
because they are the ones that negotiated it all out, and May 
7, 2004, is when we started it.
    Mr. Duncan. Well, if we're going to send these gas prices 
over five dollars or so a gallon, we can't raise the gas tax if 
it's going to go way up. But I'd really hate to see that 
happen, because people in small towns and rural areas generally 
have to drive further distances to go to work in the first 
place, and it would make them tougher on them.
    But thank you very much. This was a real good panel.
    Mr. Browning. If I could weigh in on that just a second.
    Mr. Duncan. Sure.
    Mr. Browning. If you asked about the cost savings, the cost 
lies in the fact that there's coal in the ground, and the coal 
seam has generally stayed at the same elevation, just like 
bands around a baseball. And if we can locate our new road 
construction at the proper elevation to take advantage and 
maximize the coal that's in the ground and also to route the 
road where, you know, we can do that, then that's where the 
savings comes in that he's talking about.
    That's one of the innovative ways of building roads that 
we're doing in West Virginia.
    And one more thing, he mentioned our Federal Highways 
Administrator. There is none better than Tom Smith. Tom is very 
open to new ideas, and he makes sure that his whole staff 
listens when we come to him with ideas about this or that. He 
never says, ``No.'' He says, ``Let's see how we can get it 
done.''
    Mr. Whitt. He thinks outside the box.
    Mr. Duncan. Well, that's a real compliment. That's great. 
Thank you.
    Mr. Mica. Just for the record, did you want Mr. Rahall to 
name Mr. Smith and his position? Just for the record, do you 
want to recognize him?
    Mr. Rahall. Tom Smith, our Federal Department of Highways 
Administrator.
    Mr. Mica. Thank you.
    Let's now recognize the gentlelady from Hawaii, the one 
that's come the furthest, Ms. Hirono. Thank you so much. You 
are recognized.
    Ms. Hirono. Thank you very much, Mr. Chairman. There's no 
question that our entire country is far behind in support for 
our infrastructure. I think that--well, having sat on this 
committee for going on my fifth year now, we're probably a 
trillion dollars behind in our various transportation 
infrastructure needs in this country. And it's clear from your 
testimony and from all the discussions I've had in Hawaii, 
across the board, I think, all states are far behind in meeting 
their transportation needs.
    So one of the things we talked about in this committee is 
the need to promote intermodal collaboration. We currently have 
these SILO trust funds at the Federal level.
    We have the highway trust fund, we have the airport trust 
fund, we have the harborage trust fund, and these folks 
generally do not work together. And so one of the ideas was to 
create a process whereby everybody has to work much more 
collaboratively because, after all, these modes of 
transportation--the purpose, I think, would be to move goods 
and people in the most efficient, effective way possible. And 
so just because you're in Hawaii and people come by plane, then 
they have to get on our buses or whatever our modes are, and it 
should be of a piece. Would you agree with that, that you would 
like to see some reflection of this need to collaborate in the 
new FAA Reauthorization Bill that our Chairman just submitted 
this Friday?
    Mr. Browning. If you want my comment----
    Ms. Hirono. Yes.
    Mr. Browning [continuing]. It's in my testimony. I asked 
you directly not to cut any form or mode of transportation. 
It's all important.
    Ms. Hirono. But what about the need for people to 
collaborate?
    Mr. Browning. That's what I'm saying.
    Ms. Hirono. OK.
    Mr. Browning. We can look at programs, and, you know, they 
come and go. But the forms, the modes of transportation, 
please, please do not cut those.
    Ms. Hirono. I think that is definitely coming down the pike 
and that the cuts are definitely coming down the pike, and 
we're going to--I hope that we'll hear from all of you.
    And I would also suggest if you haven't seen the FAA 
Reauthorization Bill, that, yes, relates to airports, and we in 
aviation haven't heard particularly about that. But those of 
you who deal with all of your transportation needs, not just 
one mode, I'd ask you to take a look at that bill. And if there 
are specific areas that we ought to be looking at and changing, 
reflecting the needs that we have, I'd appreciate that.
    I know that one of the other problems that you all 
mentioned are delays in projects. And, yes, a lot of them are 
approvals that we need to obtain from the EPA, and I have to--I 
think I have a slightly different perspective on these so-
called environmental radicals. I'm not a fan of environmental 
radicals, but I am a fan of people who care about our air 
quality and water quality. So I'm not for unnecessary 
regulations and requirements, and that's an ongoing issue that 
we have to look at. So my friend, Mr. Duncan, and I may 
possibly disagree, but maybe not.
    So regarding unnecessary delays, another idea that was 
incorporated in the FAA reauthorization bill, as it emerged 
from the House last time, was to establish some procedures to 
make sure that the Federal highways people and all other 
authorities are moving as expeditiously as possible. And so 
there was language in there to make sure that they are 
reporting that things are moving along, that we're not just 
doing sequential requirements and approvals, but that these 
things could operate on a parallel track to decrease some of 
the time it takes. Fifteen years is a long time for, you know, 
a project to gain various approvals and for construction to 
start. So would you also support that kind of language in the 
transportation authorization bill?
    Mr. Browning. I think one of the things that has been 
mentioned here today is design/build. You know, we know that if 
you do a project design/build, it happens faster. You're taking 
a whole step out of the evolution of it. The other thing is the 
public/private funding. When you get private industry involved, 
that seems to speed up things also.
    Ms. Hirono. I don't think we want to do anything in this 
bills that would stymie or put roadblocks in for whatever 
innovative ways that the states and the counties want to and 
the local authorities want to use in their toolboxes, so if 
there are any of those kinds of language in the various 
transportation authorization bills, I'd welcome your comments 
on that. I was curious as to--Mr. Secretary, you mentioned how 
important ARRA was for meeting our transportation needs.
    How much of the ARRA infrastructure money came to West 
Virginia?
    Mr. Mattox. The Division of Highways received about $211 
million, and we were able to do some much needed paving of our 
interstate highway and even the corridor system, and we also 
did a number of bridge deck overlays with that funding.
    We were also able to start one project here in the Beckley 
area, the East Beckley Bypass, the first stage of it, with that 
funding.
    Ms. Hirono. There was ARRA money, though, for also aviation 
and others. Do you know what the total was for the various 
infrastructure----
    Mr. Mattox. I believe transit was in the neighborhood of 
$19 million and aviation in the neighborhood of $35 million.
    I believe that number is correct.
    Ms. Hirono. So you got about almost, what, $250 million or 
$300 million, and it worked well for you folks?
    Mr. Mattox. It worked very well. We put a lot of people to 
work with those funds, and we now have projects that the people 
are utilizing.
    Ms. Hirono. This may be a loaded question, but would you 
support further funding, ARRA type funding, for infrastructure 
for all the states?
    Mr. Mattox. Here in West Virginia, we had over $1 billion 
worth of work that we could have put into construction in a 
very short time period, so we not only would support it, but 
we're ready to go.
    Ms. Hirono. What about the rest of the members of the 
panel?
    Mr. Browning. Absolutely.
    Mr. Clowser. Congresswoman, I would say from the 
Contractors Association's standpoint, the ARRA was very 
beneficial, maybe not as much as creating new jobs, but saving 
what we had.
    Ms. Hirono. That's important, too.
    Mr. Clowser. With the decline in the Federal program and 
our dollars on the state level reducing, whether it's our gas 
tax or sales tax on autos, we were seeing those two markets 
being depressed. And had it not been for the stimulus dollars, 
we would have seen many layoffs within the construction 
industry.
    Ms. Hirono. Do any of the other panel members have a 
contrary or a different view?
    Mr. Browning. The only thing I would suggest, again wearing 
my state senate hat, I know that we made good use of the ARRA 
money. We got several different--funded in several different 
areas; education, home improvement, weatherization, those types 
of programs. If we do it again, I would like to see more bricks 
and mortar projects rather than those types of projects. I know 
our state, as well as several other states, used some of the 
education money to backfill budgetary problems that, you know, 
we were going to have. We just were lucky to get the money at 
the time to put into those programs to supplement the money 
that we didn't have to put into those programs. So if we do it 
again, I would ask that we do more in the highways and, you 
know, more bricks and mortar type projects like that.
    Ms. Hirono. Does anyone else want to add?
    Mr. Whitt. I agree with bricks and mortar, water, sewer.
    I totally agree with Senator Browning.
    Ms. Hirono. I agree with you, too, but those of us who sit 
on the Transportation and Infrastructure Committee understand 
how important infrastructure support is for job creation and 
job retention, so I'm totally with you all.
    I have a question for Dr. Nichols. You mentioned that there 
are entities at our universities whose jobs it is and whose 
goal is to come up with innovative ideas to support 
transportation needs. Can you give me an example of an idea 
that came out of these university programs?
    Mr. Nichols. The RITA, the Research and Innovative 
Technology Administration, they do a great job of monitoring 
all of these different ventures that these UTCs have to 
deliver, and one example here in West Virginia, we are working 
with the West Virginia DOT on a number of projects; a 511 
system, which is a travel information system, which many states 
have those now, but we're getting one here in West Virginia. 
And that's coming out of a collaboration more technologically 
based.
    The project in Morgantown, the advanced traffic signal 
control, there are so many traffic signals--I mean, everyone is 
frustrated when they are sitting at a red light and there is no 
one around. And there are so many low- hanging fruit like that, 
that could be addressed, but it's more of an infrastructure--a 
communications infrastructure need. You need to have 
communications to that traffic signal so that someone knows 
when there is a vehicle detected that's not working and things 
like that. And so we are working with the DOT to put in some 
infrastructure so that we can monitor those traffic signal 
timings on a minute-by-minute basis and actually look at 
performance.
     I mean, I think performance measurement within our 
transportation system--I know in California there is a UTC out 
there who has done a lot with Caltrans to actually put in 
system monitoring capabilities. Knowing what's going on with 
these infrastructures on a second-by-second basis really is key 
to being able to respond to inefficiencies as quick as possible 
and optimizing the system. And really it's the university that 
has the--I guess the data management and the--we are able to 
leverage a lot of our resources to make a lot of these 
improvements in the operations.
    Ms. Hirono. I think something as basic as when we're 
talking about synchronizing traffic lights, too, that's--you 
would think that we would have figured that out already, 
because time is money. Is there any kind of a big idea that is 
being--that's percolating among the UTCs?
    Mr. Nichols. Well, the UTCs are very involved in the 
IntelliDrive initiatives. RITA is pushing IntelliDrive. It used 
to be called the Vehicle Infrastructure--I can't remember what 
the other ``I'' was--but an initiative that someday we're going 
to have communication to every vehicle, and the vehicles are 
going to be communicating with the infrastructure. In 
California and Detroit, there are sample test beds set up where 
their vehicle was--the system is called a collision avoidance 
system, where the vehicle is traveling towards an intersection, 
and the intersection can detect how quickly the vehicle is 
moving when the light is going to change. And so the test 
vehicles that they have set up, the steering wheel will 
actually vibrate to alert the driver that they are getting 
ready to run a red light. And that whole system--also, the 
vehicle communications of each vehicle is communicating to the 
vehicle that it's a half mile back as opposed to having 
infrastructure in the pavement that has to monitor an incident. 
That information flows back from vehicle to vehicle, so it 
usually gets real and valid information about what's going on 
in the system. So the IntelliDrive program is being pushed by 
the USDOT, and it's kind of a long-term plan, but it is kind of 
the next big idea that needs a lot of funding.
    Ms. Hirono. Mr. Chairman, with your indulgence, I just have 
one more question. As we talk about financing our 
infrastructure needs, raising the gasoline of our highways, in 
particular raising the gasoline tax at the Federal level, I 
think, is a challenge at this stage, so we're looking for other 
ways. One suggestion has been an infrastructure bank, and I 
don't know if any of you have familiarized yourself with that 
concept, and, if so, if you have any comments about it? Or if 
you haven't looked at the various bills in Congress to create a 
way for the Federal Government to support infrastructure 
throughout our country, the infrastructure bank is one idea. 
Any comments?
    Mr. Browning. I mentioned our state rainy day fund. We try 
to keep a 10 percent level of our gross state budget in that 
fund to maintain our bond rating with some of the New York 
firms. This year, as I've already said, it's going to go over 
the 10 percent. Our Governor wants to put it at 15 percent. But 
that's a good--what you just suggested, an infrastructure bank, 
would be an ideal place to start banking some of that money.
    Now, West Virginia, because of our energy here, we are one 
of the top four states in the Nation as far as having balanced 
budgets, and we haven't had to dip into the fund for funding or 
anything like that, so we do have some excess.
    But you mentioned not willing to raise the gas tax, and I 
can understand that. I can appreciate that. It's hard for me to 
vote for tax increases, also. At the same time, even in the 
literature that was sent out to prep us for this meeting, I 
noticed where the highway trust fund--the Federal highway trust 
fund keeps getting lower and lower and lower, and you've had to 
think about putting general revenue dollars in it. What are 
your ideas for propping that fund up? I mean, if you don't do 
it in an across-the-board gas tax, what other revenue can you 
shift into that?
    Ms. Hirono. Mr. Chairman?
    Mr. Browning. I'm sorry to reverse the tables on you, but, 
you know, we're here talking about our local needs, and we 
depend on you all to do what you're doing there, and we depend 
on that highway trust fund. That's where we get our funding, 
and to see it just go lower and lower and lower--and it didn't 
just happen. We've known it for ten years that it's going to 
run out, so what do we need to do?
    Ms. Hirono. That's something we're here to listen to you 
and discuss among ourselves. That's why I think the 
infrastructure bank is one of these new ideas at the Federal 
level.
    Thank you, Mr. Chairman.
    Mr. Mica. Thank you.
    Let me just ask a couple of questions here. First of all to 
the Secretary, Mr. Secretary, out of the funds that you--well, 
first of all, the American Recovery Act, the stimulus money, I 
was very supportive of. Working with Mr. Oberstar, we had hoped 
to have 50 percent of any stimulus package would be 
infrastructure. Of course, that would have been about $380 
billion, but the original bill was only going to be a total of 
about $250 or $300 million, and we planned for 50 percent.
    We ended up with $63 billion out of $787 billion, which is 
less than 7 percent, which is pretty pitiful. Of that, the 
State of Florida as of, I think, last week had only actually 
spent 50 percent--49 or 50 percent of that money. Mr. Mattox, 
how much have you actually spent of your 211 for additional 
funds. Do you know?
    Mr. Mattox. Off the top of my head, I know that we had it 
all obligated by all the deadlines.
    Mr. Mica. Well, obligation and spending are two different 
things. How much did you actually spend?
    Mr. Mattox. I know in our state budget we're down to only 
carrying $40 million as far as what we expect to expend, so we 
have spent at least $160 million about.
    Mr. Mica. OK. So you've spent about 70 percent?
    Mr. Mattox. 70 or 80 percent.
    Mr. Mica. OK. Which is pretty good considering as of last 
October, they only spent 39 percent across the Nation. So it 
wasn't a good process of getting the money out, and part of the 
problem is part of what we heard today; it's the impediments, 
all of the Federal red tape and regulations. I told Mr. Rahall 
that we have our immediate former Secretary of Transportation, 
Stephanie Kopelousos, who is starting today in Washington for 
about a month or two months. She left our administration in 
Florida, and she does have another position she'll assume in 
Florida, but she has agreed to come up and work with the 
Secretary. So we invite you, Mr. Secretary, to work with her to 
redline any of those impediments. We want to be good stewards 
of our environment, but not all of the impediments are 
environmental. The gentlelady from Hawaii also said that we 
should look at doing things concurrently rather than 
consecutively.
    Mr. Whitt, do you think that would help?
    Mr. Whitt. I think it could.
    Mr. Mica. OK. Well, again, any impediments that you see--
someone mentioned program consolidation. Any ideas for program 
consolidation, Mr. Mattox, Mr. Browning? Anything dealing with 
the Federal Government as far as numbers of programs or excess 
mandates that you could recommend them changing, Mr. Mattox?
    Mr. Mattox. I would make a recommendation of flexibility in 
the various Federal funds to give us more flexibility to put 
the Federal dollars where our needs are.
    Mr. Mica. OK. Senator Browning?
    Mr. Browning. I'm not as familiar with your programs as the 
secretary is, but----
    Mr. Mica. So you are happy with the way the Federal 
Government treats West Virginia?
    Mr. Browning. I am. Just send more money.
    Mr. Mica. Well, that seems to be the problem. But I think 
we're looking for innovative ways, and it's good to hear from 
Dr. Nichols. I think one thing we haven't focused enough on is 
technology. Sometimes if you can make traffic move faster, you 
use your dollars more wisely as far as technology. So we will 
take some of your recommendations back on the ITS, and also 
education is important.
    We also heard some about public/private partnerships.
    Either Mr. Mattox or anyone else who wants to comment, we 
really don't have a good Federal definition, nor do we have the 
incentives that would help both from a financial standpoint, 
and maybe there are some bond-backing, again, carrots rather 
than sticks that we could provide for public/private 
partnerships. Any ideas? Mr. Mattox, could we start with you?
    Mr. Mattox. Mr. Chairman, as Mike Clowser had alluded to, 
with public/private partnerships in West Virginia, you're 
generally talking about user fees or a toll to pay back the 
private partner.
    Mr. Mica. Right.
    Mr. Mattox. And in West Virginia our traffic counts are 
low, and our capital cost of our highway construction is so 
high that it makes it very challenging to utilize public/
private partnerships in West Virginia.
    Mr. Mica. I donated four dollars coming down.
    Mr. Mattox. And you will going back. That's a toll road 
that's been in place since back in the 1950s, and the toll has 
been in place for over 50 years now. We are currently working 
on a toll road project that is a public/public partnership--the 
Division of Highways, the Department of Transportation, with 
the West Virginia Parkway Authority--on U.S. 35, and we are 
having some financial difficulties putting together a financial 
plan on that project using a combination of Darby bonds, 
earmarks that were in SAFETEA-LU, as well as toll revenue 
bonds. And we are really struggling to come up with a financial 
plan to fund this.
    Mr. Mica. I heard you say, also, in your testimony that you 
are the sixth state as far as state-maintained roads. Is it 
that 92 percent are maintained by the State?
    Mr. Mattox. Mr. Chairman, that's correct. The sixth largest 
state-maintained highway system in the country.
    Mr. Mica. And maybe we could look at some reward for states 
that are handling and financing their own projects, which would 
also reward you. I think that might be something we could look 
at. And we heard a lot about design/build and the design/build 
financing. Do we have--did we have enough support for those 
programs, or do you feel you have enough leeway?
    Mr. Mattox. We currently have some pilot projects that we 
have been working with Contractors Association in West 
Virginia. That was a new concept with them. Design/build has 
been around a long time; it has just not been utilized here in 
West Virginia except for the past few years as far as highway 
construction goes. As far as the Division of Highways, so far 
we've had very good results utilizing the design/build process.
    Mr. Mica. Well, the issue of financing is key to this, and 
we have heard recommendations. And anyone who has been on this 
planet the last 90 days or more realizes that there's a new 
atmosphere in Washington. As I joked earlier, the Republican 
leadership has already seen that it's very difficult to get the 
votes to the floor that aren't reducing some program and taking 
significant whacks at spending.
    I said, beginning last summer, that the gas tax is dead, 
and it was dead then. Now it's absolutely impossible at this 
stage. It's dead and buried and six feet under, so we have to 
be more creative in where we get the revenues. Any ideas 
without the gas tax increase, guys? Gentlemen?
    Mr. Browning. You know, if I could elaborate one more time 
on public/private, the projects that we did on the Coal Field 
Expressway we did as an economic development project.
    We didn't do it as a road project, nor did we do it as a 
mining project. But, you know, had we done it as highway or had 
we done it as mining, the regulatory atmosphere would have been 
a lot heavier. So the fact that we did it as an economic 
development project in West Virginia lessened some of the 
regulatory oversight, so we could build it much faster. So 
public/private projects are all unique themselves, and as the 
Commissioner said, you know, West Virginia is not in tune with 
other states because of our heavy cost of building roads, so 
that's kind of an option that's out. The one way we can do it, 
though, is what we said earlier, is to maximize the use of the 
coal, which would be the private part of the equation. You 
know, I'm hearing that President Obama's budget is going to 
have a 17 percent cut for transportation. You're saying that 
the gasoline tax is dead. So I don't know. How are we going to 
do it?
    Mr. Mica. Well, I think we're going to have to look at 
streamlining. We have to maximize public/private partnerships, 
better incentive to the bucks that we have there, give 
flexibilities to states. Mr. Rahall and I will have to put our 
heads together and figure out a way this--we are very much 
aware that the trust fund is declining, so we've got to look at 
a way of stabilizing that and get the votes to pass that. And 
looking at innovation, Dr. Nichols?
    Mr. Nichols. Just one comment. I'm sure this will come up 
if you're not already aware of it, but Oregon did a pilot study 
on a mileage-based tax, which was looking at a different way of 
putting money into highway trust funds since vehicles are 
getting more----
    Mr. Mica. Driving further and paying less.
    Mr. Nichols. So just other ways of--there are other models 
out there.
    Mr. Mica. Well, we're looking at all of those, but the 
problem is if I comment or Mr. Rahall comments today, it will 
telegraph across the country like a wildfire, and we would 
rather hold our comments. The purpose of our going across the 
country is to get ideas and innovations. We heard some good 
things today from the panel that we can hopefully incorporate. 
Sometimes, too, it's difficult for some folks to speak publicly 
in a formal hearing, so we welcome also any recommendations 
that you can get to anyone on the panel. We welcome that.
    Mr. Clowser. One recommendation, we might want to change 
the gas tax to a user fee. Then it becomes truly a--we pay for 
it as we use it, and we think it's one of those fairer taxes 
there are.
    Mr. Mica. That being said, we are looking at alternatives. 
Yes, go right ahead, Mr. Rahall.
    Mr. Rahall. Thank you, Chairman. You know, the gentlelady 
from Hawaii was asking about ARRA. In my opinion, the best 
second stimulus we could ever do is to reauthorize a robust 
transportation bill. I mean, to me, that trumps any second ARRA 
bill that we may be considering. And, you know, I think it's 
important that we keep all options on the table.
    The administration has come out against the gas tax during 
a recession, I might add, their words. So who knows when we can 
get out of a recession, if we ever do. But I think it is 
important that we do keep all options on the table.
    I mean, Richard, you turned the tables and asked us.
    That's a very difficult question of how are we going to 
finance a new bill. Yes, the revenues coming into the highway 
trust fund are going down. They will continue to go down. If we 
become more conservative in our driving patterns, as we have 
the new vehicles that are coming online that we all promote, 
but with every new technology that comes online, that means 
less gas revenue that's going into that highway trust fund. It 
is truly a user-generated concept.
    If you don't want to pay the tax, you don't drive your car.
    So it's not mandated tax as such.
    And I might add, with all due respect to my Chairman on the 
Republican side, that we also took action earlier this year in 
a rules change. You kind of alluded that the firewall that had 
been set up in the past under Republican Chairman Bud Schuster, 
that we put up a firewall around that highway trust fund and 
said that everything coming into it has to go back out for 
transportation and nothing else. So we have to be careful with 
that, as well. If we do--if there were ever any gas tax 
increase, we can't let it be diluted to any other purposes but 
transportation.
    Mr. Browning. Congressman, first of all, I don't mean to 
put anyone on the spot----
    Mr. Rahall. No, we didn't take it that way.
    Mr. Browning [continuing]. By asking questions. But you 
have to realize that this is our chance to talk to the Nation's 
leaders in this area, and I want to get my digs in, you know.
    Mr. Rahall. That's correct. That's why we're here.
    Mr. Browning. The other thing you have to remember is 
somebody has to pay for the highways. Somebody has to pay for 
the railroads. Somebody has to pay for aviation. You either get 
the money from the public up front in the form of a fee, a tax, 
or you pay later in the form of an interest on a public/private 
venture, that someone has invested in a project and then they 
get their money back through tolls or whatever. So the money 
has to come from the public; it's just when you get it and how 
you get it, because nobody is going to go out and build it just 
for the sake of building.
    That's what we have to figure out.
    Mr. Mica. Well, that's one of the reasons we're here, 
again. We've got the next 30 days of hearings around the 
country, and then we'll probably do a couple in Washington, 
whatever Mr. Rahall would like to agree to. Then we'll sit down 
and try to craft the best legislation possible. Again, I've 
always found that the best ideas come from around the country.
    Did you have anything else, Ms.----
    Ms. Hirono. No, I'm fine.
    Mr. Mica. Well, what we wanted to do was thank you for 
participating today. We want to leave a few minutes so members 
would have a chance to hear from some of those in the audience 
that have come out today. We are very grateful for those who 
have taken time and those who have participated in the formal 
process. The informal process can be just as productive. So I 
can't be more appreciative of Mr. Rahall's cooperative efforts 
today in trying to steer the committee in a productive path 
forward. As he said, too, probably a six-year, full 
reauthorization of our transportation policy, the full bill. 
Hopefully, we can get the FAA bill. That accounts for another 9 
or 10 percent of our gross domestic product, and we don't have 
say over the whole economic activity or all the legislation and 
the budget and the bigger picture, but we do have our little 
corner of legislative responsibility on behalf of the American 
people, so we are determined to move forward and then with 
other key pieces of legislation during the year. So, with that, 
we have just been delighted to be here. It is brief, but we do 
have votes later this afternoon. We have got a little quick 
listening session before we board our aircraft back to the 
Nation's capital. But thank you so much for hosting this, Mr. 
Rahall and the mayor who came out and other local officials and 
state officials. Thank you. If there is no further business----
    Mr. Browning. I would like to thank you all, also, for 
coming.
    Mr. Mica. Well, thank you.
    If there is no further business before the Transportation 
and Infrastructure Committee of the U.S. House of 
Representatives, this meeting is adjourned. Thank you.
    [Whereupon, at 9:40 a.m., the committee was adjourned.]

</pre></body></html>
